Pane
I

(COCKLE

Legal Briefs

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

No. 20-1088

DAVID AND AMY CARSON,

as parents and next friends of O.C., et al.,

Petitioners,
v.

A. PENDER MAKIN, in her official capacity as
Commissioner of the Maine Department of Education,

Respondent.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF CHRISTIAN
LEGAL SOCIETY, UNITED STATES CONFERENCE OF CATHOLIC BISHOPS, AMERICAN
ASSOCIATION OF CHRISTIAN SCHOOLS, THE ANGLICAN CHURCH IN NORTH
AMERICA, ASSOCIATION OF CHRISTIAN SCHOOLS INTERNATIONAL, COUNCIL FOR
AMERICAN PRIVATE EDUCATION, COUNCIL FOR CHRISTIAN COLLEGES &
UNIVERSITIES, EVANGELICAL COUNCIL FOR FINANCIAL ACCOUNTABILITY, THE

LUTHERAN CHURCH—MISSOURI SYNOD, NATIONAL

ASSOCIATION OF

EVANGELICALS, AND QUEENS FEDERATION OF CHURCHES AS AMICI CURIAE IN
SUPPORT OF PETITIONERS in the above entitled case complies with the typeface requirement
of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text

and 10 point for the footnotes, and this brief contains 7987 words, excluding the parts that are

exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 10th day of September, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

My Comm. Exp. September 5, 2023

 

GENERAL ROTARY-State of Mebraska ( heed ta w Chk
RENEE J. GOSS: 9. .
Notary Public

41182
